Oversight Review              February 16, 2010 



   Report on Review of Army Decision Not to 

     Withhold Funds on the Logistics Civil 

      Augmentation Program III Contract 



           Report No. D-2010-6-001

  Additional Copies

  To obtain additional copies of the final report, visit the Web site of the Inspector General
  of the Department of Defense at www.dodig.mil/audit/reports or contact the Office of the
  Assistant Inspector General for Audit Policy and Oversight at (703) 604-8760 or fax (703)
  604-8982.

  Suggestions for Future Reviews

  To suggest ideas for or to request future reviews, contact the Office of the Assistant
  Inspector General for Audit Policy and Oversight at (703) 604-8760
  (DSN 664-8760) or fax (703) 604-8982. Ideas and requests can also be mailed to:

                           Office of the Assistant Inspector General

                                for Audit Policy and Oversight

                        Inspector General of the Department of Defense 

                              400 Army Navy Drive (Room 833)

                                  Arlington, VA 22202-4704





Acronyms

ASC                   Army Sustainment Command
AMC                   Army Materiel Command
AFARS                 Army Federal Acquisition Regulation Supplement
DCAA                  Defense Contract Audit Agency
DCMA                  Defense Contract Management Agency
DFARS                 Defense Federal Acquisition Regulation Supplement
FAR                   Federal Acquisition Regulation
LOGCAP                Logistics Civil Augmentation Program
RCI                   Resource Consultants, Inc.
Table of Contents

Results in Brief                                                                   i


Introduction


   Objective                                                                       1

   Background                                                                      1


Findings

   A.	 Decision Not to Withhold Funds on the Logistics Civil Augmentation

       Program III Contract                                                        4


   B.	 Army Use of Resource Consultants, Inc., on Logistics Civil Augmentation

       Program III                                                                23


Appendixes

   A.	 Scope and Methodology                                                      25


   B.	 Senate Armed Services Committee Request                                    27



Management Comments

   Headquarters, U.S. Army Materiel Command Comments	                             30

                 Review of Army Decision Not to Withhold 

                 Funds on the Logistics Civil Augmentation 

                           Program III Contract



Results In Brief                                    What We Recommended
                                                    We recommended that the Commanding
What We Did                                         General of the Army Materiel Command
We conducted this review in response to a           develop quality assurance procedures for
Senate Armed Services Committee request             requesting Federal Acquisition Regulation
involving the Army’s decision not to                deviations and for developing contingency
withhold funds on the Logistics Civil               plans associated with the continuation of
Augmentation Program (LOGCAP) III                   essential DoD contractor services. The
contract.                                           Army Materiel Command should take
                                                    corrective actions for the unauthorized
                                                    decision not to enforce Federal Acquisition
What We Found                                       clause 52.216-26, Payments of Allowable
Two Commanding Generals of the Army                 Costs Before Definitization.           The
Sustainment       Command        directed   a       Commanding General of the Army
contracting officer to postpone the                 Sustainment Command should implement
withholding of funds on the LOGCAP III              quality assurance procedures for ensuring
contract in noncompliance with the Federal          compliance with all contract clauses, and
Acquisition Regulation. The decision to             should improve its policies and procedures
postpone the withholding of funds was               for reassigning employees.
influenced by contractor claims that the
withholding might adversely impact their            Management Comments
ability to provide vital support services to
the troops.        The Army Sustainment             The Army Materiel Command partially
Command request for a deviation from the            concurred with Finding A and four of five
Federal Acquisition Regulation did not              related recommendations.      The Army
include all relevant facts necessary for the        Materiel Command was not required to
approving official to make an informed              respond to Finding B. We request that the
decision. In the deviation request, the Army        Army Materiel Command reconsider its
also could not support its claim that it had        nonconcurrences. We also request that the
considered alternatives in obtaining the            Army Materiel Command reconsider its
LOGCAP III services. While the timing of            response to Recommendation A.2., because
two employee reassignments raised the               the proposed corrective action was not
possibility that they could have been related       responsive.      We request additional
to the individuals' efforts on the 15 percent       comments      to    Finding     A      and
withhold issue, we did not find sufficient          Recommendations A.1., A.2., A.3., and B.1.,
evidence to substantiate that those efforts         by March 3, 2010.
were the basis for their reassignments.             United Stated Department of Department of Defense, Office of Inspector General
                                                                        (Project No. D2009-DIP0AI-0141.000)
                                                                               Report No. D-2010-6-001
                                                                                  February 16, 2010




                                                i
                                  Introduction

Objective
In response to a Senate Armed Services Committee request dated December 12, 2008, we
reviewed the Army’s decision not to withhold funds on undefinitized task orders under the
Logistics Civil Augmentation Program (LOGCAP) III contract, as Federal Acquisition
Regulation (FAR) clause 52.216-26 requires. We focused our review on the following five
questions raised in the review request:

   1.	 Were Army contracting officials responsible for the LOGCAP contract in August 2004
       directed by their chain of command to reverse a decision to withhold funds from a DoD
       contractor because the contractor failed to provide data needed to substantiate contract
       costs?

   2.	 Did anyone in the Army chain of command discuss the withhold issue with contractor
       officials in August 2004, and did any such discussions influence the Army's position on
       withholding funds from the contractor?

   3.	 Was the Army's decision not to withhold funds from the contractor in August 2004
       consistent with the requirements of the FAR?

   4.	 Was the removal of Army contracting officials responsible for the LOGCAP contract in
       August 2004 the result of the contracting officials’ efforts to withhold funds from the
       contractor?

   5.	 Were Army officials that the Senate Armed Services Committee staff interviewed

       truthful in their description of these events?


We also performed a preliminary review of the Army’s contract with Resource Consultants, Inc.,
which provided cost and price analysis services in support of the Logistics Civil Augmentation
Program III contract. Based on our preliminary review, we have initiated a full review of the
Resource Consultants, Inc., contract and we will provide the results in a separate report. See
Appendix A for details regarding our scope and methodology and prior coverage.

Background
Army Sustainment Command (ASC). The Army Sustainment Command, headquartered at
Rock Island, IL, is responsible for a wide range of logistics missions in support of current and
future combat operations, ongoing Army training cycles, and worldwide humanitarian and
disaster relief efforts. Major Army Sustainment Command responsibilities include field support,
materiel management, maintenance of pre-positioned stocks, and contingency contracting



                                               1

(providing combat service support like food and lodging through commercial sources). The
Army Sustainment Command is a major subordinate command of the Army Materiel Command
headquartered at Ft Belvoir, Virginia. Prior to October 2006, the Army Sustainment Command
was known as the Army Field Support Command. For consistency, this report refers to the
“Army Sustainment Command,” although most of the events described in this report took place
prior to October 2006.

Logistics Civil Augmentation Program (LOGCAP) III. LOGCAP is a U.S. Army initiative of
peacetime planning for the use of DoD contractors in wartime and other contingencies.
Contractors perform selected services to support U.S. Forces engaged in DoD missions. Use of
contractors in a theatre of operation allows soldiers to focus on combat mission roles rather than
combat service support roles. In December 2001, the Army Sustainment Command awarded the
LOGCAP III contract to one DoD contractor. The performance period under the LOGCAP III
contract included one base year and nine 1-year options. The LOGCAP III contract continues to
provide essential combat service support, such as dining facilities, fuel, food, water, and shelter
to U.S. Forces in Southwest Asia and other locations. Through December 26, 2008, the Army
paid out a cumulative total of $28.4 billion under the LOGCAP III contract.

The Army Sustainment Command is transitioning from LOGCAP III to LOGCAP IV, which
employs a new strategy of awarding work to three different contractors on a competitive basis.
The three contractors include KBR, Inc., DynCorp International LLC, and Fluor Intercontinental,
Inc. LOGCAP IV draws from the lessons learned during LOGCAP III and calls for improved
administration and oversight. The Army Sustainment Command awarded the LOGCAP IV basic
contract on April 17, 2007.

Undefinitized Task Orders on LOGCAP III. Under LOGCAP III, work is awarded to the
contractor on a sole-source basis through the issuance of individual task orders. Task order 59,
which provided initial support services to U.S. Forces stationed in Iraq, was among the largest of
the LOGCAP III task orders. To meet urgent operational needs, as was the case in supporting
U.S. Forces in Iraq, the Army frequently authorized the contractor to begin work before a task
order was definitized. An undefinitized task order refers to an order where work has commenced
before the Government and contractor agree on the price, terms, or specifications. Although
undefinitized task orders allow the contractor to begin work quicker, they carry associated risks
to the Government. Recognizing those risks, the FAR and Defense Federal Acquisition
Regulation Supplement (DFARS) place limits on the length of time a contract action can remain
undefinitized, and the percentage of costs that can be reimbursed before definitization. For
example, DFARS 217.7404-3 generally requires definitization within 180 days after work
begins. In two separate reports issued in June and July of 2004, the Government Accountability
Office noted that the Army had not definitized several LOGCAP III task orders in a timely
manner. As of June 2004, the Army had not definitized 31 LOGCAP III task orders, and several
of those exceeded the 180-day limit.

Federal Acquisition Regulation Clause 52.216-26. FAR clause 52.216-26, Payments of
Allowable Costs Before Definitization, imposes specific limits on reimbursement of allowable



                                                 2

costs incurred by a contractor before definitization. Reimbursements to a contractor for
cost-reimbursement subcontracts must not exceed 85 percent of allowable costs. In other words,
the remaining 15 percent of allowable costs billed by a contractor for cost-reimbursement
subcontracts must be withheld until the contract action is definitized. Army contracting officials
often refer to this clause as “the 15 percent withhold.” The clause serves to protect the
Government’s interests and to incentivize contractors to submit adequate and timely cost
proposals in order to facilitate timely contract definitization.

The LOGCAP III contract contained FAR clause 52.216-26, and it applied to LOGCAP III
undefinitized task orders. In February 2004, more than 3 years after awarding LOGCAP III, the
Army learned that it had failed to withhold a portion of contractor reimbursements required by
the clause. Therefore, in noncompliance with FAR clause 52.216-26, the Army had paid the
contractor for all of its incurred costs on LOGCAP III undefinitized task orders. After
postponing enforcement of the clause for several months in 2004, the Army asked the Director of
Defense Procurement and Acquisition Policy to grant a deviation from FAR clause 52.216-26
which would allow the Army to reimburse all costs billed on LOGCAP III undefinitized task
orders. The Director of the Defense Procurement and Acquisition Policy granted the deviation
on February 2, 2005.

Defense Contract Audit Agency (DCAA). DCAA is responsible for conducting all DoD
contract audits and providing accounting and advisory services to DoD Components responsible
for procurement and contract administration. DCAA questioned millions in costs associated
with its audit of several LOGCAP III task orders. In August 2004, two months before the Army
requested the FAR deviation, DCAA recommended that the Army begin enforcing FAR clause
52.216-26 because the contractor’s cost proposals continued to be inadequately supported.
According to DCAA, the proposal inadequacies caused significant delays in conducting audits
and impaired the Government’s ability to definitize LOGCAP III task orders in a timely manner.

Senate Testimony. A former Chief of Field Support Contracting at the Army Sustainment
Command testified before the Senate Armed Services Committee on July 9, 2008. He testified
in part that in August 2004 the Commanding General of the Army Field Support Command
directed the LOGCAP III contracting officer to retract a letter informing the LOGCAP III
contractor that the “15 percent withhold” (FAR clause 52.216-26) was being implemented. The
ASC Commanding General directed the contracting officer to ask the contractor for an
operational impact estimate in the event the Army decided to implement the 15 percent withhold.

The former Chief of Field Support Contracting also testified that the Commanding General hired
Resource Consultants, Inc. (now SERCO), to replace the DCAA audits as a basis for definitizing
estimated costs on task orders.

The former ASC Chief of Field Support Contracting further testified that he believed the ASC
Commanding General’s direction to postpone enforcement of the “15 percent withhold” and to
use Resource Consultants, Inc., to replace the DCAA audits was inappropriate and resulted in
excessive contractor costs paid to the contractor.



                                                3

                                  Findings

A. Decision Not to Withhold Funds on the Logistics
   Civil Augmentation Program III Contract
   Without authority, two ASC Commanding Generals postponed enforcement of FAR
   clause 52.216-26 for several months in 2004. The decision to postpone enforcement of
   the clause was influenced by contractor claims that withholding of funds might adversely
   affect vital support services provided to the troops. ASC’s failure to enforce the clause
   from inception of the contract and develop a contingency plan for obtaining LOGCAP III
   services from other sources put the Government at significant risk of overpayment.
   Although ASC later obtained a FAR deviation in February 2005, which authorized ASC
   not to implement the clause, the deviation request did not include complete or accurate
   information. While the timing of two employee reassignments raised the possibility that
   they could have been related to the individuals' efforts with regard to the 15 percent
   withhold issue, we did not find sufficient evidence to substantiate that the efforts of the
   two ASC contracting officials to implement the FAR clause was the basis for their
   removal from the LOGCAP III contract. We also did not find sufficient evidence to
   substantiate that any of the Army officials who spoke to the Senate Armed Services
   Committee staff were untruthful in describing the events in question.

      Detailed answers to the Senate Armed Services Committee questions are discussed
      below.

      Question 1. Were Army contracting officials responsible for the LOGCAP
      contract in August 2004 directed by their chain of command to reverse a
      decision to withhold funds from the contractor because the contractor failed to
      provide data needed to substantiate contract costs?

      Yes. A preponderance of evidence indicates that the ASC Commanding General
      directed the LOGCAP III contracting officer to postpone her decision to implement
      the 15 percent withhold. The ASC Commanding General did not have the authority
      to postpone the withholding of funds because the FAR mandates it on undefinitized
      contract actions, absent an approved deviation. The prior ASC Commanding General
      who retired in June 2004 also did not have the authority to grant earlier
      postponements to enforcing the clause.

   Postponements to Implementing the 15 Percent Withhold Prior to August 2004.
   In March 2004, one month after learning that the Army had inadvertently not
   implemented the 15 percent withhold, the prior ASC Commanding General (now retired)
   decided to postpone enforcement of the clause for 30 days. The contracting officer



                                            4

supported the decision and later issued two additional 60-day postponements, which
delayed enforcement of the clause until August 15, 2004. According to the contract file,
the prior ASC Commanding General delayed implementation of the clause because the
Government revised the statements of work on a large number of task orders. In June
2004, the prior ASC Commanding General retired, and the Army appointed a new
commanding general.

Postponement to Implementing the 15 Percent Withhold in August 2004. On
August 13, 2004, two days before the clause postponement was due to expire, the
LOGCAP III contracting officer briefed her chain of command on her intent to
implement the 15 percent withhold. The contracting officer decided to begin withholding
funds as required by the FAR clause because the reasons for postponing the clause no
longer existed. For example, the Government had not changed its requirements for
several months. On August 16, 2004, the Defense Contract Audit Agency also
recommended enforcing the clause based on continued inadequacies with supporting
documentation for the contractor’s cost proposals. Initially, the contracting officer’s
chain of command generally supported the decision. However, the newly appointed ASC
Commanding General wanted assurances that withholding of funds would not adversely
affect battlefield operations. According to a preponderance of evidence we reviewed, the
following events then occurred:

       •	 On August 16, 2004, the contracting officer hand-delivered a draft of a letter
          to a contractor representative advising that the Army would begin enforcing
          the FAR clause on future billings. The contractor representative verbally
          challenged the draft letter.
       •	 On the morning of August 17, 2004, the contracting officer met with
          contractor officials to reaffirm the Army’s decision to enforce the clause.
       •	 Later on August 17, 2004, the ASC Commanding General spoke with the
          contracting officer by telephone in order to direct her to postpone her decision
          to enforce the clause until the contractor submitted an estimate of the impact
          on battlefield operations associated with the withholding of funds.
       •	 On the afternoon of August 17, 2004, the contracting officer issued a letter to
          the contractor to request an estimate of the impact on battlefield operations, as
          the ASC Commanding General directed.

This account of events is based on the contracting officer’s contemporaneous notes and
testimony we received from her and other ASC contracting personnel. It is also
consistent with a contractor press release and several news articles quoting an ASC
spokesperson. In an August 17, 2004, press release, the contractor announced that the
Army would begin enforcing the clause on all future contractor billings. On
August 17, 2004, a USA Today (Reuters) news article stated,

             “The Army said earlier Tuesday it had decided that starting
             Wednesday it would withhold 15% of payments …But later the



                                        5

             Army indicated it would continue to reimburse in full …the Army's
             biggest contractor in Iraq, for feeding and housing troops there. ‘I
             just got a phone call putting on hold the 15% withhold clause
             implementation and I don't know why or any of the particulars,’ said
             ASC’s spokeswoman.”

The ASC spokesperson told us the news article accurately reflects her recollection of
events and her statement to the media. While the ASC Commanding General and other
Army officials told us they do not recall the events of August 17, 2004, the ASC
Commanding General does not deny giving such direction. Responding to the
contracting officer’s notes of the August 17, 2004, telephone call, the ASC Commanding
General testified to us “The notes from that phone call sounds like stuff that I would say.”

Authority and Responsibility of the Commanding General and Contracting Officer.
As the Head of the Contracting Activity, the ASC Commanding General has broad
powers in managing the contracting activity. Under FAR 1.602-1, contracting officers
receive their authority and warrant from the appointing authority, which is the
Commanding General in the case of ASC. Accordingly, the Head of the Contracting
Activity has the authority to give direction to a contracting officer under his or her
command, provided the direction does not violate law, FAR, DFARS, or other applicable
DoD regulations, directives and instructions. However, as explained in our answer to
question 3 below, the Commanding General’s direction to further postpone enforcement
of the clause in August 2004 did not comply with the FAR. Likewise, the prior
Commanding General in place before June 2004 did not have the authority to issue the
earlier postponements that expired on August 15, 2004.

Because the contracting officer’s actions were based on orders from the ASC
Commanding General, the contracting officer is not responsible for failing to implement
the 15 percent withhold.

   Question 2. Did anybody in the chain of command discuss the withhold issue
   with contractor officials in August 2004, and did any such discussions influence
   the Army's position on withholding funds from the contractor.

   Yes. Throughout 2004, contractor representatives discussed the withhold issue with
   senior officials at ASC and the Army Materiel Command. The contractor’s claim that
   the withholding of funds might impact vital support services to the troops influenced
   the Army’s position not to implement the 15 percent withhold. Taking into account
   the contractor’s claim and ASC’s lack of an alternative plan for obtaining the services
   from other sources, the ASC Commanding General felt that enforcing the clause
   could jeopardize battlefield operations. ASC had thus failed to comply with DoD
   Instruction 3020.37 by not maintaining a contingency plan for continuing essential
   LOGCAP III services in the event the contractor did not fulfill its contractual




                                          6

    obligations. ASC has since changed its acquisition strategy on LOGCAP IV to avoid
    the reliance on one contractor and to help ensure that enforcement of contract clauses
    is not jeopardized.

Contractor Discussions Prior to August 2004. Senior Army officials at Rock Island
Arsenal met with the contractor to discuss several issues impacting the execution of the
LOGCAP III contract in 2004, including the 15 percent withhold. Even though the
clause was included in the contract, contractor officials strongly disagreed with clause
enforcement on the basis that the clause only applied to letter contracts, not LOGCAP III
task orders. The contractor also warned ASC that clause enforcement would threaten
their financial ability, or their subcontractor’s financial ability, to perform on the contract.
The contracting officer obtained a legal opinion from the ASC General Counsel who
disputed the contractor’s claim that the clause did not apply and recommended immediate
enforcement of the FAR clause.

Contractor Discussions in August 2004. In an August 4, 2004, letter to the
LOGCAP III contracting officer, the contractor requested another 60-day postponement
in enforcing the FAR clause based on progress made in definitizing LOGCAP III task
orders. According to testimony, the contractor also spoke with several Army officials to
aggressively dispute enforcement of the clause. The contractor warned the Army that it
would pass the withholding of funds to its subcontractors, which could cause a severe
disruption of vital support services provided to the troops. Two officials, one from ASC
and one from the Army Materiel Command, testified that a contractor representative had
even threatened to initiate a lawsuit against them personally as well as the Army over any
withholding of funds. When the contracting officer hand-delivered the draft letter on
August 16, 2004, contractor representatives again expressed their strong disagreement
with the decision and stated that the withholding of funds “would get turned around.”

According to testimony we received, the ASC Deputy Commanding General spoke to,
and exchanged emails with, contractor officials about clause enforcement on August 15,
2004. In an email reply to the contractor, the ASC Deputy Commanding General advised
the contractor that ASC was “leaning toward withholding funds” due to a lack of progress
in definitizing task orders. The Commanding General testified that he did not recall
holding any discussions with the contractor in August 2004. We also did not find any
written evidence that the ASC Commanding General had communicated with contractor
representatives just prior to his postponing enforcement of the clause on August 17, 2004.
The Deputy Assistant Secretary for Policy and Procurement testified to us that she and
the Deputy Secretary of Defense for Acquisition and Policy had met with the contractor
around this time, but she could not recall if any part of the meeting addressed the
withholding of funds under the FAR clause.

Influence on Army Decision. The contractor’s claims concerning the potential impact
on LOGCAP III support services did influence the ASC Commanding General’s decision




                                           7

to postpone enforcement of the FAR clause and ultimately request a FAR deviation. 

ASC would have likely begun clause enforcement in March 2004 had the contractor not

argued aggressively against it.


In explaining ASC’s actions, the ASC Commanding General and other Senior ASC

officials said they were concerned that enforcing the clause could seriously jeopardize

battlefield operations. ASC relied exclusively on one prime contractor and its

subcontractors to provide most of the logistical support to troops in theatre. According to 

ASC contracting officials, this reliance diminished the government’s leverage in

enforcing critical contract clauses such as FAR clause 52.216-26. Several ASC and 

Army Materiel Command officials told us they did not have an alternative plan for

obtaining the essential support services from other sources.


We also did not find any evidence in the contract file that ASC had developed 

contingency plans for providing essential LOGCAP III services in the event the prime

contractor or its subcontractors did not fulfill their LOGCAP III contractual obligations. 

ASC’s failure to maintain such a contingency plan does not comply with DoD Instruction 

3020.37, “Continuation of Essential DOD Contractor Services during Crises.”

Paragraphs 4.3 and 4.4 of DoD Instruction 3020.37 states:


           “DoD Components working with contractors performing essential services
           shall develop and implement plans and procedures which are intended to
           provide reasonable assurance of the continuation of essential services during
           crisis situations using contractor employees or other resources as necessary.

           For situations where the cognizant DoD Component Commander has a
           reasonable doubt about the continuation of essential services during crisis
           situations by the incumbent contractor, the Commander shall prepare a
           contingency plan for obtaining the essential service from alternative sources
           (military, DoD civilian, host-nation, other contractor(s)).”

In addition, Paragraph 6.5 of DoD Instruction 3020.37 states:

           “Determine prior to contract award, or prior to modification to extend the
           performance period, whether an interruption of service would result in an
           unacceptable risk. If an unacceptable risk would result, develop a
           contingency plan to ensure continued service.”

Despite having to modify the LOGCAP III contract each year to extend the performance
period, ASC failed to recognize the need to develop a plan to ensure continued LOGCAP
III services as DoD Instruction 3020.37 requires. ASC must develop policies and
procedures to ensure future compliance with DoD Instruction 3020.37.

The ASC Commanding General who assumed command in June 2004 did direct that the
acquisition strategy for the LOGCAP IV contract provide for multiple contractors to



                                           8

compete on individual task orders. This strategy should help to ensure that critical
contract clauses such as FAR clause 52.216-26 will not be jeopardized in the future.

   Question 3. Was the Army's decision not to withhold funds from the
   contractor in August 2004 consistent with the requirements of the Federal
   Acquisition Regulation?

   No. The ASC Commanding General’s decision to postpone the withholding of funds
   in August 2004 was inconsistent with the FAR. The ASC Commanding General did
   not have legal authority to postpone enforcement of the FAR clause prior to receiving
   the approved FAR deviation in February 2005. In addition, the failure to enforce the
   clause from inception of the contract in December 2001 (nearly 3 years) represents a
   significant internal control weakness that put the Government at significant risk for
   overpayment. We also determined the Army’s request for deviation omitted relevant
   facts about the financial impact on the contractor. In addition, the Army could not
   support the statement in the deviation request that it had examined available
   alternatives. These discrepancies could have affected the decision to approve the
   deviation.

Lack of Internal Controls for Enforcing Contract Clauses. ASC contracting officials
told us that around February 2004, they discovered that the 15 percent withhold had not
been implemented due to an oversight. Clearly, the failure to do so put the Government
at significant risk for overpayment and complicated FAR clause enforcement thereafter.
Even though this serious oversight took place over 5 years ago, we did not see any
evidence that ASC had reviewed or taken action to improve its procedures or internal
controls related to contract clause enforcement. ASC needs to take immediate action to
help ensure future compliance with all contract clauses.

Postponements Did not Comply with the FAR. The language of FAR clause 52.216­
26 is directive and mandatory. For example, paragraph (b) of the clause states “…The
total reimbursement made under this paragraph shall not exceed 85 percent of the
maximum amount of the Government’s liability, as stated in this contract.” (emphasis
added) This FAR clause does not allow for the use of discretion by contracting officials.
Accordingly, neither the contracting officer nor the Head of the Contracting Activity at
ASC had the authority to postpone enforcement of the clause from March 2004 until
February 2005 (when ASC received an approved FAR deviation). Obtaining an
approved deviation in accordance with the FAR, DFARS, or AFARS was the only legal
means of not implementing the 15 percent withhold.

Army Deviation Request was Incomplete and Not Supported. In late August 2004,
ASC contracting officials began drafting a request to deviate from the FAR clause, which
would allow ASC to pay all allowable costs on undefinitized task orders. According to
the contract file, the ASC Commanding General sent the request through the Commander




                                        9

of the Army Materiel Command and Deputy Assistant Secretary of the Army for Policy
Procurement on October 29, 2004, who then forwarded it to the Director of Defense
Procurement and Acquisition Policy for approval.

FAR Subpart 1.4 and Defense Acquisition Regulation Supplement (DFARS) 201.4
prescribe the policies and procedures for requesting and approving deviations from the
FAR. DFARS 201.402(2)(ix) states that a deviation request must “Give detailed
rationale for the request.” As addressed in Paragraph 7 of the ASC deviation request, the
rationale for deviating from the FAR clause focused on two main points:

       •	 The contractor indicated that the financial hardship of exercising the clause
          would threaten its ability to perform on the contract.

       •	 ASC had examined alternative means of providing LOGCAP III services in
          the event of a contract disruption and found no mechanism to prevent a
          profound impact to the soldier.

If accurate, the Army’s rationale would support the deviation granted by the Director of
Defense Procurement and Acquisition Policy. Given the critical nature of the services
provided, the Army could not risk a significant disruption to the LOGCAP III support
services. However, as discussed below, we found that the Army omitted relevant facts
and did not support its claim that ASC had considered available alternatives. These
matters could have affected the decision to grant the FAR deviation.

        Financial Hardship Caused by Clause Enforcement. The Army appeared to rely
solely on statements from the contractor that the financial hardship of clause enforcement
would threaten the contractor’s ability to perform on the contract. For example, the
deviation request states that the contractor, “estimates the impact, should the Government
invoke the provisions of the clause, to be in the range of $60 million per month.” We
found no evidence in the contract file that the Army had attempted to validate this and
other contractor claims regarding the significance of the financial hardship. In fact, we
noted indications in the contract file that some Army officials felt the $60 million figure
was exaggerated.

We also question why the Army used the financial hardship of the contractor as a basis
for requesting the deviation. According to an Army internal memorandum dated
September 15, 2004, the Army had already concluded that the contractor could
financially perform on the contract despite clause enforcement. DCAA and DCMA also
concluded that the 15 percent withhold would not create a significant financial impact on
the contractor.

Moreover, the deviation request omitted the fact that the contractor’s parent company had
guaranteed performance on the contract. The parent company was therefore contractually
obligated to provide the resources necessary to ensure contract performance.



                                        10

        Examination of Alternative Means for Providing LOGCAP III Services. We
found no evidence in the contract file that the Army had considered available alternatives
in the event the contractor did not fulfill its critical obligations under the LOGCAP III
contract. Therefore, ASC’s statement that it had examined alternatives may be
inaccurate.

We found that ASC appeared to have alternatives available to it that were not fully
explored. An ASC Associate General Counsel had recommended issuing a cure notice to
the contractor, which would have required the contractor to correct any impediments to
contract performance. However, ASC did not issue a cure notice. If the contractor had
defaulted on the contract, ASC also had the option of working directly with the
subcontractors to prevent a significant disruption to vital services. ASC should have
documented its serious consideration of these and other options before claiming that it
had done so in the request for deviation.

Commanding General Responsibility. According to his June 2004 appointment letter
as Head of the Contracting Activity, the ASC Commanding General was responsible for
ensuring compliance with all regulations, including the FAR and DFARS. In addition,
the ASC Commanding General signed the FAR deviation request and was therefore
responsible for its accuracy and completeness. Violating the FAR clause is a failure to
adhere to a regulatory requirement and could be considered a failure to protect the
Government’s interests. The Army Materiel Command should consider appropriate
corrective actions for failing to implement the 15 percent withhold and submitting an
inadequate FAR deviation request.

In determining appropriate corrective actions, we identified the following circumstances
that the Army should consider. Regarding the failure to enforce the FAR clause, the ASC
Commanding General’s actions appear to be based on his concern that the troops receive
vital support services. In addition, the ASC Commanding General who assumed
command in June 2004 inherited some of the deficiencies linked to the withhold issue,
such as the failure to implement the withhold from inception of the contract and to
maintain a contingency plan for essential LOGCAP III services. However, our review
also reflects that the ASC Commanding General did not take prompt and decisive
corrective action once he became aware of the deficiencies.

Regarding the FAR deviation request, we note that the ASC Commanding General chose
this option to avoid any potential disruption to battlefield operations. However, the
evidence also indicates that ASC Commanding General relied solely on contractor
statements concerning the estimated impact on battlefield operations without verifying
these statements or performing a thorough and independent review of the estimated
impact.




                                        11

   Question 4. Was the removal of Army contracting officials responsible for the
   LOGCAP III contract in August 2004 the result of their effort to withhold funds
   from the contractor?

   No. While the timing of the reassignments raised the possibility that they could have
   been related to the individuals' efforts on the 15 percent withhold issue, we did not
   find sufficient evidence to substantiate that the efforts of the Chief of Field Support
   Contracting and the LOGCAP III contracting officer to withhold funds were the basis
   for their reassignment from the LOGCAP III contract. However, ASC management
   did not carry out the reassignments in a professional manner.

Reassignment of the ASC Chief of Field Support Contracting. The ASC Chief of
Field Support Contracting, who was the immediate supervisor of the LOGCAP III
contracting officer, had fully supported the contracting officer’s decision to implement
the 15 percent withhold in August 2004. On or about August 17, 2004, he learned that
ASC management was reassigning him from managing the LOGCAP III contract.
Effective September 5, 2004, he began leading a team dedicated to the LOGCAP IV
planning efforts. One year after the reassignment, ASC management terminated his
temporary promotion.

Based on testimony we received, we determined that the former ASC Chief of Field
Support Contracting’s support for the 15 percent withhold was not a primary factor in his
reassignment. ASC senior management had considered reassigning the ASC Chief of
Field Support Contracting at least 45 days before the August 2004 decision to postpone
implementation of the FAR clause. In late June 2004, an ASC senior manager first
advised the ASC Chief of Field Support Contracting that ASC management might
reassign him. On July 30, 2004, 18 days before the August 2004 decision, the ASC
Commanding General offered the Chief of Field Support Contracting position to an
employee managing another ASC division.

The testimony reflects that ASC management wanted new direction on the LOGCAP III
contract for two primary reasons. First and foremost, the ASC Commanding General and
other senior DoD officials were not satisfied with the progress made in reducing the
backlog of undefinitized task orders, which the Government Accountability Office stated
should be a top priority for the Army. Second, the ASC Chief of Field Support
Contracting resisted the ASC Commanding General’s plan for increasing the presence of
contracting officers stationed in the theatres of operation.

We did note that the former ASC Chief of Field Support Contracting learned of his
reassignment on or about August 17, 2004, only hours after the ASC Commanding
General directed the contracting officer to postpone the withholding of funds. While the
timing raises the possibility that the reassignment could be related to the individual’s
efforts with regard to the 15 percent withhold issue, we did not find sufficient evidence to
confirm this relationship.



                                         12

We also reviewed the circumstances surrounding the termination of the temporary
promotion, which took place 1 year after his reassignment. We did not find sufficient
evidence of a link between the termination of the temporary promotion and his support
for FAR clause enforcement. When the employee appealed the decision, a human
resources specialist performed a review of the duties and responsibilities of the position
and determined that the action was justified.

Reassignment of the LOGCAP III Contracting Officer. Effective October 3, 2004,
ASC management reassigned the LOGCAP III contracting officer to another ASC
division. The employee lost her temporary promotion as a result of the reassignment. On
September 10, 2004, three weeks prior to the reassignment, the contracting officer
requested a transfer to another division, but ASC management initially denied it. On
September 14, 2004, ASC management issued a memorandum to the contracting officer
entitled Direction to Deploy, requiring the contracting officer to deploy to Southwest
Asia in 12 days for a period of 6 months. The memorandum reminded the contracting
officer that she held an emergency essential position and was subject to disciplinary
action (including removal from Federal service) if she refused to deploy. The contracting
officer could not deploy for personal reasons. After the contracting officer appealed the
decision, ASC management eventually agreed to grant her transfer request with a loss of
her temporary promotion.

Like the Chief of Field Support Contracting, the evidence indicates that the contracting
officer’s efforts to enforce the FAR clause were not the primary reason for her
reassignment. The LOGCAP III contracting officer had significant differences of opinion
on the direction of the LOGCAP III program with her supervisor, the new Chief of Field
Support Contracting. The timing of this reassignment also raises the possibility that it
could be related to her effort to withhold funds. However, the preponderance of
testimony we received suggests that it was primarily based on a disagreement over the
deployment of contracting officers and the use of Resource Consultants, Inc., to resolve
the DCAA audit findings.

ASC Management Authority to Reassign Employees. The ASC Commanding
General and Head of the Contracting Activity had broad discretion in managing the
contracting function, including the authority to make personnel reassignments. ASC
management acted within their authority in reassigning the Chief of Field Support
Contracting and the LOGCAP III contracting officer. Since the employees held
temporary promotions, ASC management also had the authority to terminate the
promotions at any time.

However, ASC management did not carry out the reassignments in a professional
manner. The Chief of Field Support Contracting only learned about his reassignment
after his replacement showed up unexpectedly at a joint meeting with contractor
representatives. Moreover, the 12-day notice of deployment issued to the LOGCAP III



                                         13

   contracting officer was irregular since ASC normally provides civilian personnel with
   a 60-day notice to deploy. Although ASC management had the authority, we question
   the mission-essential need for the extraordinarily short notice, particularly since ASC
   management has never deployed the position held by the reassigned employee.

   The ASC Commanding General told us he did not know that his management team had
   given a Direction to Deploy notice to the contracting officer. He agreed that the 12-day
   notice was unreasonable under the circumstances. ASC should review its policies and
   procedures for reassigning employees and make appropriate corrective actions to help
   ensure that ASC management carries out future reassignments in a professional manner.

      Question 5. Were Army officials interviewed by Committee staff over the last
      several months truthful in their description of these events?

      We did not find sufficient evidence that any of the Army officials who spoke to the
      Senate Armed Services Committee staff were untruthful in describing the key events
      in question. Our review did not disclose significant discrepancies between the
      interview notes provided by the Senate Armed Services Committee staff and the
      testimony we received.

      Our review of the Senate staff interview notes and the testimony we received
      established that witness recollections of events varied from witness to witness. This
      is understandable considering that the events in question occurred about four years
      prior to the Senate staff interviews. While the ASC Commanding General did not
      recall many of the specific events surrounding his reversal of the LOGCAP III
      contracting officer’s decision to enforce the FAR clause, he does not necessarily
      dispute the LOGCAP III contracting officer’s account of those events.

Management Comments on the Finding and Our
Response
   The AMC Acting Executive Deputy to the AMC Commanding General did not concur
   with our findings on Questions 1 through 3, but concurred to our findings on Questions 4
   and 5. The management comments include general comments as well as specific
   comments to our findings on Questions 1 through 3.

   General Management Comments. The Acting Executive Deputy to the AMC
   Commanding General stated that the findings and recommendations are based on an
   incomplete record because we did not interview the Assistant Secretary of the Army for
   Acquisition, Logistics and Technology to obtain his comments and perspective. The
   Assistant Secretary was personally and substantially involved in the decisions regarding
   the implementation of FAR 52.216-26 and the submission of the DoD waiver.




                                           14

Our Response. On November 24, 2009, we interviewed the prior Assistant Secretary
of the Army for Acquisition, Logistics and Technology. Although the ASC contract file
does not document any involvement by the prior Assistant Secretary, we learned from the
interview that the request for deviation was coordinated through his office and that he had
supported it. However, his testimony did not provide a basis to change our findings. His
concurrence does not negate the fact that the prior postponements to implementing
the 15 percent withhold did not comply with the FAR. He testified to us that he was not
aware of the 2004 postponements to implementing the clause, or the reversal of the
contracting officer’s attempt to implement the clause on August 17, 2004. We also
learned that he relied largely on the accuracy and completeness of the deviation request in
supporting it, as did the Director of Defense Procurement and Acquisition Policy. For
example, he was not aware of the corporate guarantee of contract performance because it
was not disclosed in the ASC deviation request. Such reliance is not unusual or
unreasonable for a high-level senior official.

Management Comments-Question 1. The AMC Acting Executive Deputy did not
concur. According to the Acting Executive Deputy, the March 2004 postponement and
its continuation by the new ASC Commander was consistent with the authority in
AFARS 5101.43. The subsequent request for a class deviation to withhold funds could
also be viewed as an implicit grant of an individual deviation by the ASC Commanding
General. The Defense Procurement and Acquisition Policy memorandum dated
February 2, 2005, further demonstrates the proper exercise of the Head of the Contracting
Activity's authority. FAR 1.403 and AFARS 5101.403 provided the authority for the
Head of the Contracting Activity and the Principal Assistant Responsible for Contracting
at ASC to grant a deviation. AFARS 5101.403(1), Individual Deviations, states:

     (1) Only PARCs may approve individual deviations to FAR, DFARS, and AFARS. This
     authority does not extend to areas set forth in DFARS 201.402; to any provisions which
     limit approval authority to a level higher than a HCA; (sic) and to any provisions based
     upon statute or Executive Order unless such authority provides for waiver.

Our Response. We disagree with the management comments. The postponements to
implementing the 15 percent withhold are not consistent with the authority in
AFARS 5103.43 for obtaining a deviation. The postponements involved temporary and
unauthorized delays in enforcing the FAR requirement, while the authority in
AFARS 5103.43 addresses formal steps for approving individual contract deviations.

The ASC Commanding General’s request for a class deviation cannot be viewed as an
“implicit grant” of an individual deviation because the AFARS requires that specific
steps be taken in approving deviations. The contracting activity must assign a control
number to each approved deviation and furnish a copy to the Office of the Deputy
Assistant Secretary of the Army (Procurement), Procurement Policy and Support
Directorate. The LOGCAP III contract file contains no evidence to demonstrate that
these steps were taken or that an individual deviation was approved in advance of



                                             15

the 2004 postponements. Email evidence indicates that ASC did not decide to pursue a
deviation until around August 30, 2004, after ASC had granted the last postponement on
August 17, 2004. We re-interviewed the prior ASC Principal Assistant Responsible for
Contracting who stated that he did not recall approving an AFARS individual deviation
request at any time in 2004. The first documented deviation approved by the Principal
Assistant Responsible for Contracting took place on June 29, 2005, in order to extend the
deviation authority granted by the Defense Procurement and Acquisition Policy on
February 2, 2005.

We noted that ASC had requested a “class deviation,” rather than an individual deviation,
based on legal advice from Associate General Counsels at ASC and AMC. The legal
advice stated that a class deviation was required to waive the 15 percent withhold
requirement on the LOGCAP III program because the task orders issued under
LOGCAP III contract represented multiple “contract actions.” However, in granting the
deviation approval on February 2, 2005, the Director of Defense Procurement and
Acquisition Policy stated that the request qualified as an individual deviation, which
authorized the Army to approve all future deviations. As AMC points out,
AFARS 5101.403(1) designates the Principal Assistant Responsible for Contracting as
the approving official for all individual deviation requests within the Army.

We have identified two preliminary concerns related to the designation of the
LOGCAP III deviation request as an individual deviation. First, we are concerned that
the regulations might be unclear with respect to the criteria for individual and class
deviations. The Army’s interpretation of the applicable regulations differed significantly
from that of Defense Procurement and Acquisition Policy, which suggests a need for
clarification. Second, we are concerned that the Principal Assistant Responsible for
Contracting has the authority to approve all individual deviations regardless of
significance. Given the significance and sensitivity of the LOGCAP III deviation, our
preliminary finding is that a higher senior DoD official outside the immediate contracting
chain of command should approve such deviations. We are still reviewing these concerns
and we will report our recommendations, if any, in a separate memorandum to the
Director of Defense Procurement and Acquisition Policy and the Army.

Management Comments-Question 2. The AMC Acting Executive Deputy did not
concur. The Acting Executive Deputy stated our review failed to recognize that the
LOGCAP III contract was awarded to "augment" the primary means of providing
logistics support to deployed forces. AMC believes that the contract implements DoD
Instruction 3020.37 such that the PCO possesses the legal authority to require continued
performance. Finally, the Acting Executive Deputy said our review fails to recognize
that LOGCAP III is the contingency contract for use by the Army during times of crisis
to ensure continuation of essential services in accordance with DoD Instruction 3020.37.

Our Response. We disagree with the management comments. When LOGCAP III was
awarded in December 2001, the Army might have intended to use LOGCAP III to



                                        16

“augment” the primary means of providing support services. However, the Army has
relied on LOGCAP III to essentially be the only means of providing support services to
the troops in the major theatres of operation, including Iraq and Afghanistan. In
noncompliance with DoD Instruction 3020.37, the Army had not developed procedures
for providing reasonable assurance that the LOGCAP III essential services would
continue despite major contractual disputes such as the 15 percent withhold requirement.
Several Army officials acknowledged that they had to request a deviation of the 15
percent withhold requirement, a mandatory and critical contract clause for protecting the
Government’s interests on undefinitized contract actions, in part because the Army had
not developed a backup plan for providing these services. The Army should not have
placed itself in a position of having to waive critical and mandated contractual
requirements when a contractor later decides to object to them.

While AMC claimed that the contracting officer possesses the legal authority to require
continued performance in the event of major dispute, the management comments did not
identify this authority. Assuming that such legal authority exists, ASC chose not to
exercise it to resolve the 15 percent withhold dispute while ensuring the continuation of
essential services.

We strongly dispute the AMC claim that the LOGCAP III contract itself is the
contingency contract which ensures continuation of services in accordance with DoD
Instruction 3020.37. This interpretation of DoD Instruction 3020.37 is without merit and
alarming considering the magnitude and critical nature of the services provided under
LOGCAP III to the warfighter. The mere existence of a contract with a DoD contractor
does not satisfy the requirements contained in DoD Instruction 3020.37. Paragraph 4.3 of
the Instruction emphasizes that when DoD Components use contractors to perform
essential services, they must develop and implement plans and procedures intended to
provide reasonable assurance of the continuation of essential services during crisis
situations. Paragraph 6 of this Instruction defines what each DoD Component is required
to do for services designated as mission essential. We noted that ASC had not even
identified the services designated as mission essential in the LOGCAP III statement of
work, as required by DoD Instruction 3020.37, paragraph 6.1.

We spoke to the Deputy Director, Requirements/Program & Budget Coordination, Office
of Undersecretary of Defense (Personnel and Readiness), who is responsible for the
maintenance of DoD Instruction 3020.37. The Deputy Director agreed with our
interpretation of this Instruction. The Deputy Director emphasized that if a DoD
Component has doubts that an “incumbent contractor” can or will continue to perform an
essential function and has not prepared a contingency plan, the DoD Component is not in
compliance with DoD Instruction 3020.37.

The Government Accountability Office and the Commission on Wartime Contracting in
Iraq and Afghanistan previously reported DoD’s failure to comply with DoD
Instruction 3020.37. In 2003, the Government Accountability Office reported that DoD



                                        17

had done little to identify essential services provided by contractors and develop plans to
ensure continuation should contractors become unavailable. In June 2009, the
Commission on Wartime Contracting in Iraq and Afghanistan found that little had been
done since the 2003 Government Accountability Office report. ASC should make
compliance with DoD Instruction 3020.37 a priority partly by implementing quality
assurance procedures for the preparation of contingency plans which ensure the
continuation of essential DoD contractor services.

Management Comments-Question 3. The AMC Acting Executive Deputy did not
concur. She pointed out that the original decision to postpone the withholding of funds
occurred in March 2004 and was approved by the ASC Head of the Contracting Activity
and others in his chain of command. The management comments state that we were
incorrect in asserting that ASC did not provide adequate information to DoD decision-
makers. The deviation request provided an analysis of the conditions surrounding the
request for deviation, according to the Acting Executive Deputy. The management
comments also state that there was considerable discussion between various DoD
officials outlining the consequences if the contractor was unable to financially support the
Army. AMC suggested that we ask the prior Director of Defense Procurement and
Acquisition Policy if she felt there was adequate information in the deviation request
upon which to base her decision. Finally, AMC said that alternatives such as contract
termination were not reasonable because other contractors were not available to mobilize
19,000 workers to support the mission on short notice.

Our Response. We disagree with the management comments. While the ASC Head of
the Contracting Activity and others approved the postponements, they did not have the
authority to grant this approval.

We maintain that the deviation request was incomplete and inaccurate. The management
comments misrepresent a March 2004 email written by the then Head of the Contracting
Activity (Attachment 9 of the management comments), which reads in pertinent portions:

      “Enforcement of the contract clause is causing (the contractor) great concern as far as their
      liquidity and solvency…. I am having, or at least asking, (the contractor) layout for me their
      business case so we have full understanding of their position. They are alleging $1.1 billion
      in working capital out there....that number floats as does the amount they attribute to Restore
      Iraq Oil and LOGCAP.” (contractor name omitted)

The Head of the Contracting Activity was conveying the contractor’s concerns regarding
their financial ability to perform, not his own. The ASC Head of the Contracting Activity
had correctly asked the contractor to provide additional evidence in support of the alleged
financial impact. Months later, the Army and the Defense Contract Audit Agency had
concluded that the contractor could financially perform on the contract despite
the 15 percent withhold requirement.




                                               18

We are not questioning the consequences that might have occurred if the LOGCAP
contractor was unable to financially support the Army. We previously stated the Army
could not risk a significant disruption of LOGCAP III support services given the critical
nature of those services. However, we do question why the Army cited some of the
contractor’s financial hardship claims without verifying them, particularly when an
internal Army memorandum had already concluded that the 15 percent withhold would
not cause a significant financial impact on the contractor. We also question ASC’s
failure to disclose the fact that the contractor’s parent company had guaranteed
performance on the contract. Finally, we question whether ASC had actually examined
alternative means of providing the LOGCAP III services as it claimed in the deviation
request, since we found no evidence that such an examination had been performed.
AMC’s management comments do not provide a basis to change these findings.

We interviewed the prior Director of Defense Procurement and Acquisition Policy as part
of our review. We previously stated that the Army’s rationale presented in the deviation
request would warrant a deviation assuming it was accurate and complete. However, like
the prior Assistant Secretary of the Army for Acquisition, Logistics and Technology, we
found that the prior Director of Defense Procurement and Acquisition Policy had largely
relied on the accuracy and completeness of the deviation request in granting her approval.
As the senior DoD approving official, she was not expected to verify the accuracy and
completeness of all aspects of deviation requests. Our interview with the Director of
Defense Procurement and Acquisition Policy disclosed that she was not aware that the
contractor’s parent company had provided a guarantee of performance on the contract.
The guarantee states:

       “The Guarantor agrees to provide the Offeror all necessary and required resources
       including financing which are necessary to assure the full, complete and satisfactory
       performance of such contract.” (emphasis added)

Whether or not this omission or other inaccuracies would have affected her approval,
ASC had an obligation to provide accurate and complete information so that the
approving official could make an informed decision.

While AMC now states that alternatives such as termination were not reasonable, the fact
remains that the contract file contains no evidence that ASC had examined alternative
means of providing the services as the deviation request asserts. Viable alternatives other
than termination could have been available to resolve the disagreement without resorting
to a deviation. As previously stated, ASC should have documented its consideration of
available alternatives such as issuing a cure notice to require the removal of any
impediments to contract performance. It should be noted that the vast majority of the
LOGCAP III services were subcontracted out, so the Army would not necessarily be
required to replace 19,000 workers on short notice. The Army had the option of working




                                              19

     directly with subcontractors to prevent a significant disruption of the services. The ASC
     Chief Counsel had suggested this option, but the contract file fails to document whether
     this option was considered executable.

Recommendations, Management Comments, and
Our Response
Recommendation A.                   We recommend that the Commanding General of the
Army Materiel Command:

  1.	 Develop quality assurance procedures for requesting Federal Acquisition
      Regulation deviations to ensure that such requests comply with the applicable
      regulations and accurately reflect all relevant facts for consideration by the
      approval official.

            Management Comments. The Acting Executive Deputy to the AMC
            Commanding General concurred. The Executive Director of the US Army
            Contracting Command, in collaboration with Assistant Secretary of the Army for
            Acquisition, Logistics, and Technology, will ensure that the appropriate focus is
            paid to adequately documenting deviation decisions in accordance with FAR,
            DFARS and AFARS requirements.

            Our Response. The management comments meet the intent of our
            recommendation. However, we request that AMC identify the specific quality
            assurance procedures it will implement for helping to ensure that FAR deviation
            requests comply with applicable regulations and reflect all relevant facts. We
            request that AMC provide a copy of the specific quality assurance procedures to
            the DoD Inspector General, Office of Audit Policy and Oversight.

  2.	 Implement quality assurance procedures for ensuring the preparation of

      contingency plans for the continuation of essential DoD contractor services in

      accordance with DoD Instruction 3020.37.


            Management Comments. AMC concurred. AMC stated that the
            recommendation has been accomplished through the acquisition strategy
            implemented under LOGCAP IV.

            Our Response. The management comments are not responsive. The acquisition
            strategy implemented under LOGCAP IV does not satisfy the requirement to
            develop contingency plans for the continuation of essential DoD contractor
            services, such as those provided under LOGCAP. The LOGCAP III contract is
            still ongoing. Although the LOGCAP IV strategy maintains multiple contractors,



                                             20

            it does not eliminate the need for the Army to develop plans and procedures
            which provide reasonable assurance for continuation of essential services without
            significant disruption, using contractor employees or other resources as necessary.

  3.	 Consider appropriate corrective actions regarding the failure of the Army
      Sustainment Command to enforce Federal Acquisition Regulation clause 52.216-26
      without proper authority.

            Management Comments. AMC did not concur. AMC stated that the action
            taken was in accordance with AFARS 5101.43. See “Management Comments-
            Question 1” above for additional details.

            Our Response. We disagree that ASC took action to approve an individual
            deviation in accordance with AFARS 5101.43. The ASC contract file contained
            no evidence that ASC had executed an individual deviation or complied with the
            required steps for approving individual deviations. Refer to “Our Response” to
            “Management Comments-Question 1” above for additional details. However, we
            have determined that AMC’s response to Recommendation B.1 below should also
            satisfy the intent of this recommendation. AMC’s agreement to implement
            quality assurance procedures for ensuring that the Army enforces all contract
            clauses should also help prevent future failures to comply with FAR 52.216-26
            without proper authority.

Recommendation B.                  We recommend that the Commanding General of the
Army Sustainment Command:

  1.	 Implement quality assurance procedures for ensuring that the Army enforces all
      contract clauses. As part of this effort, the Army Sustainment Command should
      provide training to contracting officials on the proper use of undefinitized contract
      actions.

            Management Comments. AMC concurred. Training is currently incorporated
            into ongoing acquisition training and emphasized as part of the procurement
            contracting officer development and training process.

            Our Response. The management comments meet the intent of our
            recommendation. We request that ASC identify the training that is currently
            incorporated in the acquisition training process, and any other quality assurance
            procedures it has implemented since 2004, which help to ensure the enforcement
            of all contract clauses and the proper use of undefinitized contract actions.




                                            21

2.	 Review and make appropriate changes to the policies and procedures for
    reassigning employees to ensure that management carries out the reassignments in a
    professional manner.

          Management Comments. The Acting Executive Deputy to the AMC
          Commanding General concurred. ASC is developing an updated supervisory
          development course which will detail appropriate reassignment procedures. ASC
          expects to complete the new training course in February 2010.

          Our Response. The management comments are responsive. When completed,
          we request that ASC provide a copy of the newly developed training course to the
          DoD Inspector General, Office of Audit Policy and Oversight.




                                         22

B. Army Use of Resource Consultants Incorporated 

   on Logistics Civil Augmentation Program III

   As of September 2004, the Army Sustainment Command had awarded two contracts
   worth $6 million to Resource Consultants, Inc. (RCI), to perform cost analysis services.
   Our preliminary review of the Army’s use of RCI disclosed concerns that we will address
   in our ongoing review of contracting officer actions on incurred cost audit reports
   involving Iraq reconstruction activities.

   Background. DCAA audits of various LOGCAP III task order proposals in 2004
   resulted in DCAA questioning millions of dollars, and the contractor did not agree with a
   large portion of those questioned costs. In 2004, the Army Sustainment Command set up
   two Special Cost Analysis teams charged with negotiating the more significant and
   contentious questioned costs issues reported by DCAA, which had to be resolved before
   definitizing various LOGCAP III task orders. The Deputy Assistant Secretary of the
   Army for Policy and Procurement had set a March 31, 2005, deadline for negotiating all
   LOGCAP III undefinitized task orders. In September 2004, the Army Sustainment
   Command issued two contracts valued at $6 million to RCI to provide cost analysis
   services in support of the Army’s negotiation efforts. According to the contracts’
   statement of work, RCI was required to:

      •	 perform a comprehensive independent evaluation of the contractor’s cost
         proposals, taking into account all Government cost evaluations including, but not
         limited to, audit reports issued by DCAA and technical evaluations issued by
         DCMA;
      •	 address the contractor’s proposal and the corresponding position as expressed in
         the various Government audit and technical evaluations on a line item basis; and
      •	 submit its findings in a written final report which had to be sufficiently
         documented to allow the Government to fully understand the basis of the RCI
         estimate.

   Results of Preliminary Review. We determined that a full review of the Army’s use of
   RCI in support of LOGCAP III negotiations is warranted. We are performing the full
   review in our second in a series of reviews focused on contracting officer actions on
   incurred cost audits of contractors involved in Iraq reconstruction activities. Based on
   our preliminary review, we identified the following concerns:

      •	 The type of services provided by RCI may qualify as accounting and auditing
         services covered under DoD Directive 7600.2, Audit Policies (Version dated
         March 20, 2004), which requires prior approval by the DoD Assistant Inspector




                                          23

       General for Audit Policy and Oversight. The Army Sustainment Command did
       not obtain approval in accordance with DoD Directive 7600.2 before utilizing the
       services.

   •	 The negotiation memorandum for the dining facilities cost, which comprised a
      large portion of total costs, indicates that the Army solely used estimates prepared
      by RCI as a baseline to settle the cost. The negotiation memorandum does not
      address the DCAA questioned costs or explain the fundamental differences
      between the DCAA and RCI positions. DoD Instruction 7640.02, Enclosure 3,
      paragraph 3.b., requires that the contracting officer document his or her rationale
      for any disagreement with the auditor. While DCAA had questioned $360 million
      in dining facility costs, ASC had only negotiated a downward adjustment of
      $55 million.

   •	 The type of services provided by RCI may be inherently governmental and
      potentially violate DFARS 237.102 and DoD Directive 4205.2 (enclosure 2.1.9).
      Use of a contractor to perform cost analysis services deviates from the norm. In
      most cases, a Government price analyst performs these services.

   •	 The LOGCAP III contract file did not contain any final report issued by RCI as
      the contract terms required. Without a final report, the Army has no detailed
      written record of the services provided.

In June and July 2009, we requested the Army to provide documentation addressing these
concerns. We had not received all of the requested documentation upon completion of
our fieldwork. We will review the requested documentation in our ongoing audit of
contracting officer actions on incurred cost audits of contractors involved in Iraq
reconstruction activities.




                                       24

Appendix A. Scope and Methodology
As requested by the Senate Armed Service Committee, we reviewed the Army’s decision not to
withhold funds on undefinitized task orders under the LOGCAP III contract. The primary
objectives of our review were to determine if:
     •	 Army contracting officials were directed by their chain of command to reverse their
        decision in August 2004 to withhold funds on LOGCAP III as FAR clause 52.216-26
        required;

     •	 Army officials discussed the issue of withholding funds and whether those discussions
        influenced the Army not to withhold funds;

     •	 the Army’s decision not to withhold funds was compliant with the Federal Acquisition
        Regulation;

     •	 the removal of contracting officials from the LOGCAP III program was the result of
        their efforts to withhold funds on the LOGCAP III contract; and

     •	 Army officials interviewed by the Senate Armed Services Committee staff were
        truthful in describing the events surrounding the decision not to withhold funds on
        LOGCAP III contract.

We also performed a preliminary review of the Army’s use of Resource Consultants, Inc., which
provided cost analysis services in connection with the negotiation of several LOGCAP III task
orders. Based on the preliminary review, we initiated a full review and we will provide the
results in a separate report.

To accomplish our review objectives, we:
     •	 researched and applied applicable regulations (including the FAR, DFARS, and Army
        DFARS), DoD Directives and Instructions, and Army policies and procedures;

     •	 obtained and analyzed sworn and recorded testimony from current and former DoD
        officials, including:
            o	 27 current and former Army Sustainment Command officials stationed at the
               Rock Island Arsenal, Illinois;
            o	 the Executive Director, Army Contracting Command, Army Materiel Command
               Headquarters;
            o	 a former Director of Defense Procurement and Acquisition Policy;
            o	 a former Deputy Assistant Secretary of the Army for Policy and Procurement;




                                              25

            o	 a former Assistant Secretary of the Army for Acquisition, Logistics and
               Technology; and
            o	 the Director, Central Region Director, and prior Houston Branch Office
               manager of the Defense Contract Audit Agency.
     •	 obtained and reviewed Army Sustainment Command contract files, such as
        memorandums, e-mail communications, legal opinions, spreadsheets, and notes;
     •	 reviewed the findings and supporting documentation of two related Department of the
        Army Inspector General investigations; and
     •	 analyzed interview notes provided by the Senate Armed Services Committee.

We performed our review from January 29, 2009 through November 24, 2009.

Use of Computer-Processed Data. We did not rely on any computer-processed data as part
of our review.

Prior Coverage. In the last 5 years, the DoD IG Office of Audit Policy and Oversight has
issued one other report involving the Army’s LOGCAP III contract. In Report
No. D-2009-6-004, we reported on Defense Contract Management Agency’s actions on audits of
cost accounting standards and internal control systems at DoD contractors involved in Iraq
reconstruction activities.




                                             26

APPENDIX B: Senate Armed Services Committee
            Request




                     27

28

29

Headquarters, U.S. Army Materiel Command
Comments




                     30

31

32

33

34

35

36

37

